HHS/OIG, Audit -"Review of Nebraska's Accounts Receivable System for Medicaid Provider Overpayments,"(A-07-04-03061)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Nebraska's Accounts Receivable System for Medicaid Provider Overpayments," (A-07-04-03061)
January 26, 2005
Complete
Text of Report is available in PDF format (242 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine if the State agency reported Medicaid provider overpayments according to
Federal regulations.  We found that the State agency did not report all Medicaid provider overpayments on the quarterly
CMS 64 reports in accordance with Federal regulations.  The State's policies and procedures were not sufficient to
ensure the timely reporting of all overpayments.  As a result, the State agency delayed returning 448 overpayments
totaling $1,474,801 ($897,261 FFP).  Of that amount, the State agency had not yet reported or returned to the Federal
Government 353 overpayments totaling $767,304 ($467,599 FFP) as of September 7, 2004.  We recommended that the State
agency should:  (1) return the Federal share of overpayments totaling $467,599 to the Federal Government and (2) establish
policies and procedures to ensure all overpayments are reported in accordance with Federal regulations.  The State
agency generally agreed with our findings and recommendations.  It agreed to return $313,056, representing 345 overpayments,
to the Federal Government and has initiated a repayment schedule for that amount.